                                Office of Inspector General
                               Corporation for National and
                                        Community Service




                   AUDIT OF
    CORPORATION FOR NATIONAL AND COMMUNITY
          SERVICE GRANTS AWARDED TO
      WAYNE COUNTY ACTION PROGRAM, INC.

                OIG REPORT NUMBER 12-07




                 1201 New York Ave., NW
                         Suite 830
                  Washington, DC 20525
                      (202) 606-9390



This report was issued to Corporation management on December 23, 2011. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than May
22, 2012, and complete its corrective actions by December 21, 2012. Consequently, the
reported findings do not necessarily represent the final resolution of the issues presented.
                                   Office of Inspector General


                                 NATIONAL&:
                                 COMMUNITY
                                 SERVICE..-...Jr.-a-

                                       December 23, 2011



TO:            Margaret Rosenberry, Director, Office of Grants Management

               John Gomperts, Director, AmeriCorps State and National

FROM:          Stuart Axenfeld     ~ A~
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 12-07, Audit for Corporation for National and Community Service
               Grants Awarded to Wayne County Action Program (WCAP)

Attached is the final report for the above-noted audit. It was performed in accordance with
generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by May 22, 2012. Notice of final action is due by December 24, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment

cc:     Janelle Krasucki-Cooper, CEO, WCAP
        Donna Robbins , COO, WCAP
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial Management
        Kim Mansaray, Acting Chief Operating Officer
        Claire Moreno, Audit Liaison, CNCS
        Donna Smith, NY State Program Director, CNCS
        Taryn Vanaskie, NY Program Specialist, CNCS
        Jennifer Brown, Program Officer, CNCS
        Mark Walter, Executive Director, NY Commission




                   1201 New York Avenue, NW  *          *
                                                Suite 830  Washington, DC 20525
                      202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                        Senior Corps * AmeriCorps * Learn and Serve America
                                     OFFICE OF INSPECTOR GENERAL
                                                AUDIT OF
                            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                         GRANTS AWARDED TO
                                 WAYNE COUNTY ACTION PROGRAM, INC.


                                                            CONTENTS

Section                                                                                                                            Page

Executive Summary ........................................................................................................          1

Summary of Results ........................................................................................................         1

Summary of Questioned Costs ........................................................................................                1

Results of Audit ...............................................................................................................    2

Audit Objective, Scope, and Methodology ....................................................................... 10

Background ...................................................................................................................... 11

Exit Conference................................................................................................................ 11



Appendices

A: Wayne County Action Program, Inc.’s Response to Audit Report
B: Corporation’s Response to Audit Report
                                 EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of Corporation grants awarded to Wayne County Action
Program, Inc. (WCAP). The purpose of the audit was to determine whether WCAP was in
compliance with applicable laws, regulations, and terms and conditions of the grants.

SUMMARY OF RESULTS

We found the following areas in which Corporation program requirements were not met by
WCAP:

   1. Foster Grandparents Program (FGP) volunteer files did not include documentation of
      volunteer assignment plans;

   2. A FGP volunteer file did not include documentation of the identity of the foster
      grandchild being served by the volunteer;

   3. Retired Senior Volunteer Program (RSVP) volunteer files did not include
      documentation of volunteers agreeing to abide by all requirements of applicable
      regulations;

   4. An AmeriCorps member’s timesheet did not include site supervisor’s signature;

   5. AmeriCorps members’ timesheets were signed by site supervisors prior to the end of
      the pay period;

   6. An AmeriCorps member’s living allowances were not paid in equal increments; and

   7. Personnel costs were charged to the FGP, RSVP, and AmeriCorps grants by
      budgeted amounts and not actual costs.

SUMMARY OF QUESTIONED COSTS

                       Questioned         Questioned Ed          Questioned
         Finding
                         Costs               Awards            Accrued Interest
            4                 -              $2,363                   -
            5                 -               2,250                   -
            6            $1,671                   -                   -
          Total          $1,671              $4,613                   -




                                         1
RESULTS OF AUDIT

1. FGP volunteer files did not include documentation of volunteer assignment plans.

Six of the 20 FGP volunteer files reviewed did not have documentation of the volunteers’
assignment plans for their terms of service.

Criteria

45 CFR §2552.72, Is a written volunteer assignment plan required for each volunteer?,
states:

   a. All Foster Grandparents shall receive a written volunteer assignment plan
      developed by the volunteer station that:

       1. Is approved by the sponsor and accepted by the Foster Grandparent;
       2. Identifies the individual child(ren) to be served;
       3. Identifies the role and activities of the Foster Grandparent and expected
          outcomes for the child;
       4. Addresses the period of time each child should receive such services; and
       5. Is used to review the status of the Foster Grandparent’s services in working
          with the assigned child, as well as the impact of the assignment on the child’s
          development.

WCAP officials stated that job descriptions are created on an annual basis, depending upon
the sites available to the volunteers. These descriptions are distributed 30 days before the
beginning of the school year. According to WCAP officials, the volunteers in question came
into the program at mid-year and thus missed the annual distribution. By not maintaining
volunteer assignment plans, program staff and the volunteers may not have a complete
understanding of the service activity.

Recommendation

1. We recommend that the Corporation verify that WCAP has developed written volunteer
   assignment plans that adhere to program requirements and are delivered to each
   volunteer.

WCAP’s Response

WCAP concurs with the audit finding and recommendation and offers corrective action
effective September 1, 2011. It implemented new operating procedures to ensure
volunteers’ files document assignment plans for their terms of service.

Corporation’s Response

WCAP’s action is responsive to the audit finding and recommendation. This action will be
reviewed and confirmed by the Corporation.




                                           2
OIG Comments

The planned actions proposed by WCAP meet the intent of the recommendation and
address the finding.

2. A FGP volunteer file did not include documentation of the identity of the foster
   grandchild being served by the volunteer.

One of the 20 FGP volunteer files reviewed did not include documentation on the foster
grandchild being served by the volunteer.

Criteria

45 CFR §2552.72, Is a written volunteer assignment plan required for each volunteer?,
states:
    a. All Foster Grandparents shall receive a written volunteer assignment plan
        developed by the volunteer station that:

       1. Is approved by the sponsor and accepted by the Foster Grandparent;
       2. Identifies the individual child(ren) to be served;
       3. Identifies the role and activities of the Foster Grandparent and expected
          outcomes for the child;
       4. Addresses the period of time each child should receive such services; and
       5. Is used to review the status of the Foster Grandparent’s services in working
          with the assigned child, as well as the impact of the assignment on the child’s
          development.

Without proper documentation of foster grandchildren, WCAP may have volunteers serving
an unassigned or ineligible child. WCAP officials stated that this volunteer was a short-term
summer placement and such placements do not receive child assignments due to the
temporary nature of their service.

Recommendation

2. We recommend that the Corporation ensures that WCAP has documentation of foster
   grandchildren served for all foster grandparents, to include volunteers for short-term
   summer placements.

WCAP’s Response

WCAP concurs with the audit finding and recommendation and offers corrective action
effective January 1, 2012. WCAP has revised its Volunteer Assignment Plan and Child
Progress Report to clearly state “grandchild” assignments. This plan and report will be
issued to all FGP volunteers, including short-term summer placement volunteers, at the
beginning of their assignments.

Corporation’s Response

The Corporation agrees and will work with WCAP staff to ensure that all FGP assignment
plans cover all children served by the Foster Grandparents, including summer placements.
The Corporation will review the revised policy and confirm it addresses the recommendation.



                                            3
OIG Comments

The planned actions proposed by WCAP meet the intent of the recommendation and
address the finding.

3. RSVP volunteer files did not include documentation of volunteers agreeing to
   abide by all requirements of applicable regulations.

Three of the ten RSVP volunteer files reviewed did not include documentation of the
volunteer agreeing to abide by all RSVP requirements of applicable regulations.

Criteria

   45 C.F.R. §2553.41 Who is eligible to be a RSVP volunteer?, states:

       a. To be an RSVP volunteer, an individual must:
          1. Be 55 years of age or older;
          2. Agree to serve without compensation;
          3. Reside in or nearby the community served by RSVP;
          4. Agree to abide by all requirements as set forth in this part.

WCAP officials stated that volunteers are asked to sign the required declaration at
orientation. In these cases, staff error was cited as the reason for the omission. Without
documenting volunteers’ agreement to abide by RSVP requirements, there is no evidence
the volunteers understand or have agreed to follow such rules, including performing
prohibited activities.

Recommendation

3. We recommend that the Corporation ensure that WCAP requires volunteers to sign the
   necessary declaration that confirms their agreement to abide by RSVP requirements.

WCAP’s Response

WCAP concurs with the audit finding and recommendation and offers corrective action
effective September 1, 2011. WCAP policies and procedures now clearly states that all
volunteers are to be given the RSVP handbook, which contains all program requirements.
Volunteers are also obligated to sign a form indicating that they received the handbook and
their agreement to abide by these necessary requirements.

Corporation’s Response

The Corporation agrees and will work with WCAP to establish better controls to ensure all
volunteers complete the sign-off that they will abide by the requirements in the program
handbook that contain all RSVP requirements.

OIG Comments

The planned actions proposed by WCAP meet the intent of the recommendation and
address the finding.




                                            4
4. An AmeriCorps member’s timesheet did not include site supervisor’s signature.

One timesheet for one of the 20 AmeriCorps members reviewed was not signed by the site
supervisor. We deducted the 17 service hours reported on this timesheet from the
member’s total because it lacked proper approval.

Criteria

2008 AmeriCorps Provisions, Section IV. AmeriCorps Special Provisions, Part C.4., states:

   Timekeeping. The grantee is required to ensure that time and attendance
   recordkeeping is conducted by the individual who supervises the AmeriCorps
   member. This time and attendance record is used to document member eligibility for
   in-service and post-service benefits. Time and attendance records must be signed
   and dated both by the member and by an individual with oversight responsibilities for
   the member.

After deducting these 17 service hours from the member’s total of 901.5, we determined that
the member did not meet the minimum required service hours to receive an education
award for a half-time AmeriCorps member. Therefore, we question this member’s education
award of $2,363. WCAP officials stated that the unsigned timesheet was caused by human
error and was an isolated incident.

Recommendation

4. We recommend that the Corporation recover the questioned education award of $2,363.

WCAP’s Response

WCAP concurs with the audit finding and recommendation with exception and offers
corrective action effective September 1, 2011. WCAP provided an affidavit from the site
supervisor stating that the member served the hours documented on the unsigned
timesheet. WCAP has lengthened its member and site orientation to include detailed
training on the importance of required timekeeping documentation to ensure completeness
and accuracy.

Corporation’s Response

The Corporation will work with the grantee to ensure its corrective action plan adequately
addresses this finding, and will also respond to this finding and recommendation in its
management decision.

OIG Comments

The planned action proposed by WCAP addresses the finding. But we do not accept the
affidavit from the site supervisor as proper documentation for this exception. We
recommend that the Corporation recover the questioned education award of $2,363.




                                           5
5. AmeriCorps members’ timesheets were signed by site supervisors prior to the
   end of the pay period.

Three of the 20 AmeriCorps members reviewed had timesheets that were signed by site
supervisors prior to the end of the pay period. We deducted service hours reported on
these members’ timesheets that were accumulated after the site supervisor had signed the
timesheets.

Criteria

2008 AmeriCorps Provisions, Section IV. AmeriCorps Special Provisions, Part C.4., states:

   Timekeeping. The grantee is required to ensure that time and attendance
   recordkeeping is conducted by the individual who supervises the AmeriCorps
   member. This time and attendance record is used to document member eligibility for
   in-service and post-service benefits. Time and attendance records must be signed
   and dated both by the member and by an individual with oversight responsibilities for
   the member.

Of the three members, Member No. 1 had 14.5 service hours over four different pay periods
that were recorded after the site supervisor signed the timesheets. Member No. 2 had 26.5
service hours during one pay period recorded after the site supervisor signed the timesheet.
Member No. 3 had no service hours recorded after the site supervisor signed the timesheet,
but a compliance issue remains due to the timesheet being signed prior to the end of the
pay period. After deducting the questioned service hours from totals for Members Nos. 1
and 2, we determined that the two members did not meet the minimum required service
hours to receive an education award. Therefore, we question Member No. 1’s minimum
time education award of $1,000 and Member No. 2’s quarter time education award of
$1,250.

WCAP officials stated that the supervisor for Member No. 1 was not on-site on the last day
of the pay period and the auxiliary supervisor was not utilized by the site or the member.
The supervisor for Member No. 2 was on vacation during the pay period and, in this isolated
incident, the auxiliary supervisor was not utilized by the site or the member. For Member
No. 3, member leave prompted the member and supervisor to approve a timesheet for
which no hours were claimed in order to remain compliant with timesheet submission
procedures.

Recommendation

We recommend that the Corporation:

5a. Recover the questioned education awards of $2,250; and

5b. Ensure that WCAP develops policies and adequate internal controls that prohibit
    AmeriCorps members and site supervisors from signing timesheets prior to the end of
    the pay period.




                                           6
WCAP’s Response

WCAP concurs with the audit finding and recommendations with exception and offers
corrective action effective September 1, 2011. WCAP disputes the assumption that these
AmeriCorps members did not perform the hours in question. In each instance in the finding,
site supervisors pre-signed timesheets in order to remain compliant with pay period
deadlines in the face of pending planned absences at the end of the pay period. WCAP
provided an affidavit from the site supervisors stating that the members served the hours
documented on the questioned timesheet. WCAP has lengthened its member and site
orientation to include detailed training on the importance of required timekeeping
documentation to ensure completeness and accuracy.

Corporation’s Response

The Corporation will work with the grantee to ensure its corrective action plan adequately
addresses this finding, and will also respond to this finding and recommendation in its
management decision.

OIG Comments

The planned action proposed by WCAP addresses the finding. But we do not accept the
affidavits from the site supervisors as proper documentation for these exceptions. We
recommend that the Corporation recover the questioned education award of $2,250.

6. An AmeriCorps member’s living allowances were not paid in equal increments.

Living allowances were not paid in equal increments for one of the 20 AmeriCorps members
reviewed. This member’s expected end-of-term date was adjusted and changed so that she
would meet her minimum required service hours earlier than expected. WCAP adjusted this
member’s living allowance amount so that she could receive the total living allowance, even
though she would be completing service prior to her original expected end-of-term date.

Criteria

2008 AmeriCorps Provisions, Section IV. AmeriCorps Special Provisions, Part F.1., states:

   Living Allowance Distribution. A living allowance is not a wage. Grantees must not
   pay a living allowance on an hourly basis. Grantees should pay the living allowance
   in regular increments, such as weekly or bi-weekly, paying an increased increment
   only on the basis of increased living expenses such as food, housing, or
   transportation. Payments should not fluctuate based on the number of hours served
   in a particular time period, and must cease when a member concludes a term of
   service.

   If a member serves all required hours and is permitted to conclude his or her term of
   service before the originally agreed upon end of term, the grantee may not provide a
   lump sum payment to the member. Similarly, if a member is selected after the
   program’s start date, the grantee must provide regular living allowance payments
   from the member’s start date and may not increase the member’s living allowance
   incremental payment or provide a lump sum to make up any missed payments.




                                           7
We question this member’s living allowance of $1,658 and related fringe benefits of $13.
WCAP officials stated that their program pays equal living allowances for equal commitment
by taking the total living allowance amount and dividing it by the number of weeks in which
the member agrees to fulfill his/her commitment. In a case where a member would like to
fulfill his/her commitment, but cannot meet it in the contracted number of weeks, WCAP
allows that member to amend his/her original contract.

Recommendation

We recommend that the Corporation:

6a. Recover the questioned living allowance and related fringe benefits of $1,671; and

6b. Ensure that WCAP emphasizes the need to follow living allowance payment
    requirements and to strengthen procedures to fulfill these requirements.

WCAP’s Response

WCAP does not concur with this audit finding and recommendations. WCAP has allowed
members to amend their original contracts in cases where a member would like to fulfill their
commitment, but cannot fulfill the contracted number of weeks chosen prior to service.
Effective September 1, 2001, WCAP has ceased this practice. In the event that a member
must alter his/her contracted service term, the originally contracted weekly living allowance
will remain unaltered regardless of the change in term of service.

Corporation’s Response

The Corporation will work with the grantee to ensure its corrective action plan adequately
addresses this finding, and will also respond to this finding and recommendation in its
management decision.

OIG Comments

The planned action proposed by WCAP addresses the finding. We continue to recommend
that the Corporation recover the questioned costs of $1,671.

7. Personnel costs were charged to Corporation grants by budgeted amounts and
   not actual costs.

We reviewed all six WCAP staff personnel costs that were charged to Corporation grants,
and determined that they were based on budgeted amounts and not actual costs. Although
WCAP maintained timesheets for each employee charged to these programs, costs were
allocated by the budgeted percentages for each employee.

Criteria

A-122, Cost Principles for Non-Profit Organizations, Attachment B. Selected Items of Cost,
Section 8.m. Support of salaries and wages, states:

   1. Charges to awards for salaries and wages, whether treated as direct costs or
      indirect costs, will be based on documented payrolls approved by a responsible



                                            8
       official(s) of the organization. The distribution of salaries and wages to awards
       must be supported by personnel activity reports, as prescribed in subparagraph
       2, except when a substitute system has been approved in writing by the
       cognizant agency.

   2. Reports reflecting the distribution of activity of each employee must be
      maintained for all staff members (professionals and nonprofessionals) whose
      compensation is charged, in whole or in part, directly to awards. In addition, in
      order to support the allocation of indirect costs, such reports must also be
      maintained for other employees whose work involves two or more functions or
      activities if a distribution of their compensation between such functions or
      activities is needed in the determination of the organization’s indirect cost rate(s)
      (e.g., an employee engaged part-time in indirect cost activities and part-time in a
      direct function). Reports maintained by non-profit organizations to satisfy these
      requirements must meet the following standards:

       a. The reports must reflect an after-the-fact determination of the actual activity
          of each employee. Budget estimates (i.e., estimates determined before the
          services are performed) do not qualify as support for charges to awards.
       b. Each report must account for the total activity for which employees are
          compensated and which is required in fulfillment of their obligations to the
          organization.
       c. The reports must be signed by the individual employee, or by a responsible
          supervisory official having first hand knowledge of the activities performed by
          the employee, that the distribution of activity represents a reasonable
          estimate of the actual work performed by the employee during the periods
          covered by the reports.
       d. The reports must be prepared at least monthly and must coincide with one or
          more pay periods.

WCAP officials stated that while their managers are guided by their budgets as they carry
out the duties and activities needed to meet contracted program goals, WCAP has never
tolerated payroll information which is not true and correct. WCAP officials also stated that
existing timesheets reflect unique and specific duties performed at different times during
each pay period. Without charging actual personnel costs to the grant, WCAP is misstating
claimed personnel costs for Corporation grants. Since each employee, within the scope of
our review, worked solely on Corporation grants, we did not question any costs associated
to these misallocations.

Recommendation

7. We recommend that the Corporation ensure that WCAP utilizes its timesheets and
   implements a timekeeping system that documents actual labor costs and after-the-fact
   time charged to AmeriCorps grants.

WCAP’s Response

WCAP concurs with the audit finding and recommendation with exception and offers
corrective action effective October 1, 2011. WCAP has implemented new policies and
procedures where each staff member who is currently charged to more than one funding
source is required to meet with his/her supervisor to discuss and explain program activities



                                            9
   for the preceding month.    The supervisor is then required to review and approve each
   timesheet.

   Corporation’s Response

   The Corporation agrees and will review WCAP’s timekeeping system to ensure it claims
   salary costs based on actual after-the-fact time spent on grant activities.

   OIG Comments

   The planned actions proposed by WCAP meet the intent of the recommendation and
   address the finding.

   AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

   The objectives of the audit were to determine whether the costs claimed are allowable,
   adequately supported, and charged in accordance with the terms of the grant and applicable
   laws and regulations; and to determine whether WCAP is in compliance with terms of the
   grant and applicable laws and regulations related to financial management, volunteer
   eligibility, terms of service, and volunteer station compliance.

   The scope of this audit included the Corporation Grants for the following program years:

                                                                                       Volunteers
                                                            Award         Claimed
 Program       Grant Number            Audit Scope                                      in Audit
                                                            Amount         Costs
                                                                                         Scope
                                   10/01/08 – 12/31/09    $ 168,096     $ 162,610          28
             06AFHNY0010018
                                   10/01/09 – 12/31/10       168,096       159,930         31
AmeriCorps
             06AFHNY0010045        10/01/10 – 03/31/11       164,123        46,596         32
             09RFHNY0010010        07/01/09 – 09/30/10       305,013       284,131         17
                                   07/01/08 – 06/30/09       314,383       314,183         78
                06SFANY005
   FGP                             07/01/09 – 06/30/10       314,183       311,130         82
                09SFANY002         07/01/10 – 12/31/10       318,847       139,526         76
                                   07/01/08 – 06/30/09        48,649        48,649        205
                06SRANY011
  RSVP                             07/01/09 – 06/30/10        48,649        48,649        200
                09SRANY007         07/01/10 – 12/31/10        50,108        24,824        196
  Totals                                                  $1,900,347    $1,540,228        945

   We conducted this performance audit in accordance with generally accepted government
   auditing standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained provides
   a reasonable basis for our findings and conclusions based on our audit objectives.

   For AmeriCorps, we performed tests of costs incurred in Program Years 2008-2009, 2009-
   2010, and 2010-2011 (October 1, 2010 through March 31, 2011). We reviewed a sample of
   15 Federal-share costs transactions and 8 Grantee-share costs transactions between the
   three AmeriCorps grants. For FGP and RSVP, we performed tests of costs incurred in
   Program Years 2008-2009, 2009-2010, and 2010-2011 (July 1, 2010 through December 31,
   2010). We reviewed a sample of 20 Federal-share costs transactions and 20 Grantee-share



                                              10
costs transactions between the four Senior Corps grants. We also performed tests of
WCAP’s financial management system to determine compliance with applicable laws and
regulations. In addition, we performed tests of compliance with AmeriCorps, FGP, and
RSVP regulations on volunteer eligibility, terms of service, and volunteer stations. We
reviewed a sample of 20 AmeriCorps members, 20 FGP volunteers, and 10 RSVP
volunteers for compliance with applicable regulations.

We conducted our fieldwork from June 2011 to September 2011.

BACKGROUND

The Corporation awards grants to assist in the creation of full-time and part-time national
and local community service programs. Senior Corps and AmeriCorps are two of the
Corporation’s three major service initiatives. FGP provides grants to qualified nonprofit
organizations to engage persons age 55 and older, with limited incomes, who want to have
a positive impact on the lives of children in need. RSVP provides grants to qualified
organizations to engage persons age 55 and older in providing assistance that meets critical
community needs. AmeriCorps provides grants to qualified organizations to engage persons
age 17 and older in programs that address educational, public safety, human, or
environmental needs through national and community service, and provides education
awards to participants who successfully complete their service.

WCAP, located in Lyons, NY, provides vital programs and services to help low-income
families achieve self-sufficiency. WCAP collaborates with other health and human service
agencies to provide a unified, central location for these services for Wayne and surrounding
counties. WCAP had three different grants with the Corporation from Fiscal Year 2008 to
the present. WCAP receives funding from FGP, RSVP, and the AmeriCorps program.
AmeriCorps funding is a formula grant that is received from the New York State Office of
Children and Family Service. FGP and RSVP funding is received directly from the
Corporation.

EXIT CONFERENCE

The contents of this report were discussed with WCAP’s management and the Corporation
at an exit conference held on September 21, 2011. In addition, a draft of this report was
provided to WCAP and the Corporation for their comments on November 3, 2011. We
summarized their comments in the appropriate sections of this report, and included their
complete comments in Appendices A and B.

This report is intended solely for the use of the management of the Corporation, OIG,
WCAP, and U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties. However, the report is a matter of public record and its
distribution is not limited.




                                          11
Wayne County Action Program, Inc.’s Response to the Audit Report
                              Wayne County Action Program, Inc.
                                                         Helping people ... Changing lives.



                                 December 2,2011


                                 Mr. Stuart Axenfeld
                                 Assistant Inspector General for Audit
      1:5t. 1966
                                 Office of the Inspector General
Janelle Krasucki-Cooper
                                 1201 New York Ave., Suite 830
    Chief Executive Officer      Washington, DC 20525
     Donna M. Robbins
    Chief Operating Officer
                                 Dear Mr. Axenfeld,
      Patrick J. Schmitt
    Chief Financial Officer
                                 Wayne County Action Program, Inc. would like to thank you for the opportunity to
                                 respond to the findings outlined in the Office of Inspector General draft report with
                                 respect to the Corporation for National and Community Service grants awarded to
                                 our agency.

                                 Please know that our programs continually evaluate our processes and systems in
                                 order to make improvements to better ensure our compliance with the requirements
                                 and expectations of the Corporation. Working with the audit review team provided
   Program Administrator         us an opportunity to review our processes and systems for improvement
           Donna Johnson         implementations which we are confident will result in stronger and more effective
                                 programs.

                                 We look forward to receiving your comments and to final resolution based on the
                                 information provided herein.

                                 Sincerely,


                               ~.~
                                 Janelle Krasucki -Cooper




                         159 Montezuma Street * Lyons, New York 14489 • (315) 946-7530 • Fax: (315) 946-7430
                                               www.waynecap.org • info@waynecap.org
              Appendix A



WA YNE COUNTY ACTION PROGRAM, INC.

      AMERICORPS PROGRAM




     RESPONSE TO DRAFT REPORT




       Submitted December 1, 2011




                                     1
 Finding 1. Wayne County Action Program's Response:
    The agency accepts this Finding and offers corrective action supported by
    accompanying documentation.

    Implemented consistently, Foster Grandparents Program (FGP) amended volunteer file assembly
    procedures which became effective September 1, 2011 will prevent a repeat of these incidents
    of non-compliance.

la. Our existing internal policy/procedure document (exhibit FGP-A) contains a section which refers a
    specifically to the fact that all volunteers are provided with a precise assignment description.
    Included with the description is a 'Volunteer Assignment Confirmation' document which requires
    the volunteer to sign for receipt of the document. A copy of this signed document is given to the
    volunteer, and the original is kept in the volunteer's program file. All active volunteers have this
    in their file.

lb. Further, per new policy (exhibit FGP-B) a 'Foster Grandparent Volunteer Assignment Plan and
    Child Progress Report' which has been revised to contain all Federal Regulation 45CRF-2252.72
    requirements will be given to every active FGP Volunteer beginning in January, 2012.
    Henceforth, new descriptions will be issued for all active volunteers both as new volunteers enroll
    and at the beginning of each program year.




 Finding 2. Wayne County Action Program's Response:
   The agency accepts this Finding and offers corrective action supported by
   accompanying documentation.

   Implemented consistently, Foster Grandparents Program (FGP) amended volunteer file assembly
   procedures which became effective September 1,2011 will prevent a repeat of these incidents
   of non-compliance.

2a. As stated above, our revised Volunteer Assignment Plan and Child Progress Report (exhibit FGP-
    B) will be issued to all FGP volunteers upon the beginning of their assignment, and annually t
    hereafter. This form will clearly state 'grandchildren' assignments and will go into effect on
    January 1,2012. This policy/procedure revision includes Volunteer Assignment Plan documents
    for our newly developed short-term summer placements to be distributed to all placed volunteers
    beginning on July 1st and annually thereafter.




                                                                                                      2
 Finding 3. Wayne County Action Program's Response:
    The agency accepts this Finding and offers corrective action supported by
    accompanying documentation.

    Implemented consistently, Retired Senior Volunteer Program (RSVP) amended volunteer file
    assembly procedures which became effective September 1, 2011 will prevent a repeat of these
    incidents of non-compliance.

3a. Our internal policy/procedure clearly designates that a11 volunteers are given the RSVP handbook
    which contains all program requirements. Before any active service is rendered by the volunteer,
    he/she is obligated to sign a Policy Sign Off form, indicating both that they have received the
    Handbook and their agreement to abide by these necessary requirements. (exhibit RSVP-A) This
    form is retained in the volunteer's program flle, and is kept on file for all active volunteers



 Finding 4. Wayne County Action Program's Response:
    The agency accepts this Finding with exception and offers documentation to prove
    that the member in question did, in fact, complete her commitment in good standing.

4a. Under our existing policy, each of our service sites is required to designate a primary and a
    secondary supervisor as part of the Memorandum of Agreement completed at the beginning of
    each placement. (exhibit AlC-AI & A2) In this case, the primary supervisor was on vacation
    during the week in question, (exhibit AlC BI & B2) and the secondary supervisor failed to sign
    the member's time sheet due to off-site obligations.

    This member worked an average number of 14 - 23 hours per week. There is a minimal risk that
    the member would not have served the 17 hours in question because this time period occurred in
    the middle of her term, and represented a "typical" amount of time for her commitment. In
    addition, was no need to exaggerate hours worked, and there is no record of a dispute or an
    absence for this week. Furthermore, this particular member exhibited a habit of consistency with
    her host site, over a petiod of two terms. Over two terms, she did not miss a week, and it would
    have been extremely uncharacteristic for her NOT to have served this time.

4b. Included in our documentation are signed substantiation documents which prove that this
    individual did, in fact, serve the hours portrayed on the timesheet in question. (exhibit AlC-!;p)

4c. To prevent further incidents of this nature we have lengthened our member and our site
    ori.entatioD to include a detailed training regarding the importance of required timekeeping
    documentation, which includes verbal, written and interactive practice to ensure completeness
    and accuracy. All primary and secondary supervisors are required to receive this training,
    effecti ve September 1, 2011.


                                                                                                         3
    We believe that these amended policies and procedures which became effective September 1,
    2011 will prevent a repeat of this incident of non-compliance. Given the information provided
    herein, the agency respectfully requests that liability associated with this finding in the amount of
    $2,363. be removed.

 Finding 5. Wayne County Action Program's Response:
    The agency accepts this Finding with exception and offers documentation to prove
    that the members in question did, in fact, complete their commitments in good standing.

5.a Wayne County Action Program, Inc. disputes the assumption that these AmeriCorps members did
    not perform the hours in question. In each of the instances above, site supervisors pre-signed
    timesheets in order to remain compliant with pay period deadlines in the face of pending planned
    absences at the end of the period.

    Under our existing policy, each of our service sites is required to designate a primary and a
    secondary supervisor as part of the Memorandum of Agreement completed at the beginning of
    each placement. (exhibit AlC-Al. & A2) In these cases, the primary supervisor failed to take
    advantage of the ability of the secondary supervisor to sign time sheets in the planned absence of
    a primary supervisor.

    Each of these members worked an average number of hours per day, per week, with little
    variance, as proven by the preponderance of compliant timesheets in each member file. It would
    be inconsistent with the undisputed p011ions of these member's service hours to infer that these
    hours were not served.

5b. Included in our documentation are signed substantiation documents which prove that these
    individuals did, in fact, serve the hours portrayed on the timesheets in question.
   (exhibit AlC-C, C2 &A2)

5c To prevent further incidents of this nature we have lengthened our member and our site
   odentation LO include a detailed training regardinl! the imporlance of regui~red limekeeping
   documentation, which includes verbal, written and interactive practice to ensure completeness
   and accuracy. All primary and secondary supervisors are required to receive this training,
   effective September 1, 2011. Further, effective September 1, 2011 it is our policy that the
   program Director wi1l approve and initial all time heets before payment; adding a fm1her layer of
   oversight to ensure compliance and accuracy.

   We believe that these amended policies and procedures which became effective September 1,
   2011 will prevent a repeat of this incident of non-compliance. Given the information provided
   herein, the agency respectfully requests that liability associated with this finding in the amount
   of education awards totaling $2,250. be removed.




                                                                                                       4
Finding 6. Wayne County Action Program's Response:
  The agency disputes this Finding.

6.a According to our approved member contracts, our living allowance stipend is based on the
    minimum full-time amount established by the Corporation: $11,800. Our program has chosen
    to work within a 52-week term limit for service. The flexibility of our program design allows
    full-time members to choose the number of weeks in which they will complete the minimum
    1700 hours set forth in the Regulations for a full-time placement. We are a variable month
    program, contracting with members for total weeks of service (designed to meet threshold hours
    for categories of member service set forth in the Regulations) in order to accommodate agency
    host sites and member ability. To ensure compliance with Federal Regulations, our members are
    able to choose one of the following service commitment categories which may be fulfilled in the
    number of weeks agreed upon by the member and his/her host site.



               Full Time (as defined by a minimum of 1700 hours. of service)

               Half-Time (as designed by a minimum of 900 hours. of service)

                   RHT (as defined by a minimum of 675 hours. of service)

              Quarter Time (as defined by a minimum of 450 hours. of service)

             Minimum Time (as defined by a minimum of 300 hours. of service)


   Because members are not employees and are not paid by the hour, our program fulfills its
   requirement to pay equal living allowance ($11,800) for equal commitment (1700 hrs.) by taking
   the equal total amount and dividing it evenly by the number of weeks during which a member
   fulfills that commitment. Employees are told when they will work; AmeriCorps members
   design their own number of weeks of commitment in which to meet the Corporation determined
   threshold hours. However diverse the timeframes of service for each individual member-
   contract: 1) each meets the required standard of hours, 2) each is paid in equal increments
   and 3) each is paid exactly the same total amount. In no case and under no circumstance
   has a member ever been paid a lump sum to end a contracted service term.

   Under this design, there is no "hourly wage" nor does the program or the host site determine a
   set "pay rate" for "services rendered." Each member has control over his own commitment, and
   receives exactly the same living allowance as all other members. In fact, we maintain that
   weekly stipend amounts that are the same for all members every week is much closer to the
   prohibited "hourly wage" design; as an individual might be able to say, "AmeriCorps members
   all make this much on a weekly basis. This is not possible under our program's flexible design.

   While we're not required to pay a stipend for any member serving less than 1700 hours (full
   time), our program has elected to offer those who opt for a lesser commitment with a living


                                                                                                 5
     allowance. Since these slots require a lesser commitment, and because members are not paid by
     the hour, we have determined that the total living allowance will be lower, reasoning that these
     individuals may more easily be able to access other forms of self-support such as a part-time
     job.

     Based upon the calculation theory explained for full time members, we ensure that lesser
     commitment members of equal commitment receive equal total support stipends, divided in
     equal payments over the member selected weeks of service. For example, a half time (900 hour)
     member who contracts to fulfill hislher commitment over six weeks and a half time (900 hour)
     member doing a comparable placement commitment over 12 weeks receives the exact same total
     living allowance. However for one, the allowance is divided by six payments and for the next,
     the allowance is divided equally into twelve payments. As explained above, there is no "hourly
     rate" for any placement. Equal stipend for equal commitment is ensured, and each member
     selects the nature and design of his/her own service.

     In a case where a member would like to fulfill his/her commitment (for example, 900 hours) but
     cannot fulfill the contracted number of weeks chosen, we have allowed that member to amend
     hislher original contract. Since our policy is to allow members to design their own timeframe
     for completion of time thresholds set forth in the regulations, and ONLY IF the member and
     placement site agree in writing that such an amendment is beneficial to both parties, we honor
     this mutual request. Since the total commitment is the same, only the delivery design has
     changed, we do not find a basis to amend the living allowance which was originally
     contracted. Equal increments of the remaining living allowance are divided equally to
     correspond with the amended number of weeks. In this way we can continue to ensure that
     members of equal service commitment continue to receive equal living allowance, regardless of
     their service timeframe design. Our members do not receive stipends on the basis of time;
     rather, they are awarded a living allowance on the basis of service commitment and
     cumulative fulfillment.


6b. In deference to the ruling of the State Corporation and that of the Office of the Inspector
    General, Effective September 1, 2011 we have ceased this practice altogether. In the event that a
    member must alter hislher contracted service term, the originally contracted weekly living
    allowance, divided equally over the term originally agreed upon, remains unaltered regardless of
    the change in term of service. (exhibit Ale-D,)


    Given the information provided herein, the agency respectfully requests that liability associated
    with this finding in the amount of education awards totaling $1 ,671 be removed.




                                                                                                   6
     Finding 7. Wayne County Action Program's Response:
        The agency accepts this Finding with exception.

7a. It is our position that our timekeeping system has always been in compliance with A-122,    Cost
    Principles for Non-Profit Organizations, Attachment B. Section 8.m. While our        agency
    managers are guided by their budgets as they carry out the duties and activities     needed to meet
    contracted program goals, we never at any time have tolerated payroll information which is not true
    and correct. Existing timesheets clearly reflect unique and specific duties performed at different
    times dUling each pay period. Their ability to consistently achieve program objectives within their
    projected budget parameters reflects the quality of our management staff.

7b. Effective October 1, 2011, to further ensure our compliance, each of our agency staff members who
    are currently charged to more than one funding source are required to meet with his/her supervisor to
    discuss and explain program activities for the preceding month. The supervisor is then charged with
    a signed confirmation of the factual representation contained on each time/activity sheet.
    (exhibit Admin.-A)




                                                                                                       7
Corporation’s Response to the Audit Report
                               NATIONAL&:
                              COMMUNITY
                              SERVICEtttC

To:           S~ .Jenfel~/~~ant Inspector General for Audit

From:     t(Ro~~~~FO
              ~osenberr r,~r~ of Gr
                                          for. Grants and Field Financial Management
                                                         anagement
              . / /0             I¥V~?·

Cc:           Willi , And son, ChiefFinanci . Offi r
              Valen Gre , General Counsel
              John Gomperts, Director of AmeriCorps
              Erwin Tan, Director of Senior Corps

Date:         December 2,2011

Subj:         Response to OIG Draft Audit of Corporation Grants Awarded to Wayne
              County Action Program


Thank you for the opportunity to review the draft audit report of grants awarded to
Wayne County Action Program, Inc. (WCAP). WCAP operates three Senior Corps
programs and operated an AmeriCorps program funded by the state commission through
2010. The AmeriCorps program was not refunded in 2011, but will remain in operation
until the members enrolled in 2010 complete their terms of service. Weare responding to
some of the fmdings at this time. In other cases, we need to review the audit working
papers and work with the grantee to develop corrective actions. We will respond to all
remaining findings and recommendations in our management decision when the OIG
provides the audit working papers and issues the final audit report.

Recommendation #1: We recommend that the Corporation verify that WCAP has
developed written volunteer assignment plans that adhere to program requirements and
are delivered to each volunteer.

Corporation Response: The Corporation agrees. In addition to the regulation, the
sample assignment plan at Appendix 9 of the FGP Operations Handbook states that, "It is
a federal requirement that all Foster Grandparents have an assignment plan for the
children with whom they are assigned to work." In its response to the draft report,
WCAP indicated it revised its policy, Foster Grandparent Volunteer Assignment Plan
and Child Progress Report, to include all Federal Regulation 45 C.F.R. 2252.72
requirements. The assignment plan will be given to each new Foster Grandparent
beginning in January 2012 and new descriptions will be issued for all active volunteers
both as new volunteers enroll and at the beginning of the program year. The Corporation
will review the revised policy and confirm it addresses the recommendation.
Recommendation #2: We recommend that the Corporation ensures that WCAP has
documentation of foster grandchildren served for all foster grandparents, to include
volunteers for short-term summer placements.

Corporation Response: The Corporation agrees and will work with WCAP program
staff to ensure that all FGP assigned plans cover all children served by the Foster
Grandparents, including summer placements. As noted above, WCAP revised its
Volunteer Plan. The revision included a requirement that plans will identify children
served by each Foster Grandparent and will be distributed to all short-term summer
volunteers beginning on July 1st each year. The Corporation will review the revised
policy and confirm it addresses the recommendation.

Recommendation #3: We recommend that the Corporation ensure that WCAP
requires volunteers to sign the necessary declaration that conftrms their agreement to
abide by RSVP requirements.

Corporation Response: The Corporation agrees and will work with WCAP to establish
better controls to ensure all volunteers complete the sign-off that they will abide by the
requirements in the program handbook that contain all RSVP requirements. In its
response to the draft audit, WCAP indicated the sign-off form would be retained in the
volunteer's ftle.

Corporation Response to Recommendations #4 - #6: Recommendations 4 - 6
include questioned costs related to AmeriCorps member education awards and living
allowances. The Corporation will need to review the audit working papers and work
with WCAP before we can determine if the costs will be allowed or disallowed. We will
address the fmdings and recommendations after the OIG issues the ftnal audit report and
provides the working papers.

Recommendation #7: We recommend that the Corporation ensure that WCAP
utilizes its time sheets and implements a timekeeping system that documents actual
labor costs and after-the-fact time charged to AmeriCorps grants.

Corporation Response: The Corporation agrees and will review the WCAP
timekeeping system to ensure it claims salary costs based on actual after-the-fact time
spent on grant activities as opposed to budgeted allocations.
